NO. 20-6162

IN THE
SUPREME COURT OF THE UNITED STATES
FRANK TRUJILLO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
REPLY BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI
VIRGINIA L. GRADY
Federal Public Defender
KATHLEEN SHEN
Assistant Federal Public Defender
Counsel of Record
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002
kathleen_shen@fd.org
January 12, 2021

REPLY ARGUMENT
The government agrees that the question presented warrants review, and
that this case is a suitable vehicle for resolution of that question, but indicates that
its petition in United States v. Gary, No. 20-444, is its preferred vehicle. See Gov.
Mem. At 1-2. On January 8, 2021, this Court granted the government’s petition in
Gary. Under these circumstances, Mr. Trujillo’s petition for a writ of certiorari
should be granted or, in the alternative, held pending resolution of Gary.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender
/s/ Kathleen Shen
KATHLEEN SHEN
Assistant Federal Public Defender
Counsel of Record
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002
kathleen_shen@fd.org
January 12, 2021

1

